No.

IN THE

~upreme

QCourt of tbe Wniteb ~tate~
JAMES BAILEY-SNYDER,

Petitioner,
v.
UNITED STATES,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,629 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Colin Casey Ho n
Wilson-Epes Prmting Co., Inc.

